   United States Department of Agriculture
   Office of Inspector General




Procurement Oversight Audit of National
Center for Agricultural Utilization Research
Contract




                                             Audit Report 02703-0007-HQ
                                             June 2012
                          United States Department of Agriculture
                                 Office of Inspector General
                                   Washington, D.C. 20250




DATE:          June 7, 2012

AUDIT
NUMBER:        02703-0007-HQ

TO:            Ed Knipling
               Administrator
               Agricultural Research Service

ATTN:          Lisa A. Baldus
               Associate Deputy Administrator
               Administrative and Financial Management

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Procurement Oversight Audit of National Center for Agricultural Utilization
               Research Contract


This report presents the results of the Procurement Oversight Audit of the National Center for
Agricultural Utilization Research Contract, awarded by the Agricultural Research Service to
Bernard Johnson Corporation. Your written response to the official draft report, dated
April 23, 2012, is included in its entirety as an exhibit to this report.

Regis & Associates, PC, was engaged to conduct the audit to ensure that the transparency and
accountability requirements of the Recovery Act are met and to ensure that the Agricultural
Research Service’s Recovery Act procurement activities are performed in accordance with
Federal Acquisition Regulations, Office of Management and Budget guidance, and Recovery Act
requirements. During our oversight of the contract, we reviewed Regis & Associates, PC’s
report and related documentation. Our review, as differentiated from an audit, in accordance
with Government Auditing Standards (issued by the Comptroller General of the United States),
disclosed no instances where Regis & Associates, PC’s audit did not comply, in all material
respects, with Government Auditing Standards.

Based on your response, we were able to reach management decision on all recommendations in
the report. Finding 3 in this report did not contain recommendations because the issue was
previously reported. Therefore, no further response is necessary.

In accordance with Departmental Regulation 1720-1, final action must be taken within 1 year of
each management decision to prevent being listed in the Department’s annual Performance and
Accountability Report. Please follow your agency’s internal procedures in forwarding
Ed Knipling                                                                                       2


documentation for final actions to the Office of the Chief Financial Officer, Director Planning
and Accountability Division.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.

Attachment

cc: (w/attachment)
Director, Planning and Accountability Division, OCFO
    DATE:          May 8, 2012

    REPLY TO
    ATTN OF:       02703-0007-HQ

    TO:            Jane A. Bannon
                   Audit Director
                   IT Audit Operations Division
                   Department of Agriculture, Office of Inspector General

    FROM:          Regis & Associates, PC /s/

    SUBJECT:       Procurement Oversight Audit of National Center for Agricultural Utilization
                   Research Contract

    The American Recovery and Reinvestment Act of 2009 (the Recovery Act) provided the
    Department of Agriculture’s (USDA) Agricultural Research Service (ARS) with $176 million to
    reduce the backlog of facilities’ critical deferred maintenance projects. ARS added $2 million in
    Recovery Act funds to an existing contract with Bernard Johnson Corporation for architect and
    engineering services 1 for the Renovation of the Center Wing of the National Center for
    Agricultural Utilization Research, located in Peoria, Illinois. ARS’ Facilities Division in
    Beltsville, Maryland, performed the procurement activities and contract management, including
    award of task order modifications, contractor payment approval, and monitoring of the
    contractor’s Recovery Act reporting. ARS’ Financial Management Division (FMD) reported the
    agency Recovery fund statistics on Recovery.gov, through SharePoint. 2

    In enacting the law, Congress emphasized the need for the Recovery Act to provide for
    unprecedented levels of transparency and accountability, so that taxpayers know how, when, and
    where tax dollars are being spent. To accomplish this objective, the Office of Management and
    Budget (OMB) issued various implementing guidelines that require Federal agencies receiving
    Recovery Act funds to post key information on Recovery.gov. In addition, agencies must submit
    weekly updates, monthly financial status reports, award transaction data feeds, and an agency
    Recovery Act plan to OMB and to the Recovery page of the agency’s website.

    The Recovery Act also provided USDA’s Office of Inspector General (OIG) funding for
    oversight and audits of USDA programs, grants, and activities funded by the Recovery Act.
    OMB guidance states that OIGs will perform audits and inspections of their respective agencies’
    processes for awarding, disbursing, and monitoring Recovery Act funds, to determine whether
    safeguards exist for ensuring funds are used for their intended purposes.

    To ensure that the transparency and accountability requirements of the Recovery Act are met,
    USDA/OIG contracted with Regis & Associates, PC, to assist in ensuring that ARS’ Recovery


  The architect and engineering services included redesign and construction management for the Peoria, Illinois
1

renovation project.
2
  SharePoint is an electronic database for USDA’s Recovery Act data collection.
                                                            1
Act procurement activities are performed in accordance with Federal Acquisition Regulations
(FAR), OMB guidance, and Recovery Act requirements. This audit was performed in accordance
with generally accepted government auditing standards, and standards established by the
American Institute of Certified Public Accountants.

During this audit, we reviewed applicable laws and regulations pertaining to procurement
activities, contract oversight, and Recovery Act reporting. We also obtained and reviewed ARS’
organizational documents relating to management controls, policies and procedures for the
procurement and contracting functions, financial management, and other processes that would
ensure compliance with the Recovery Act.

The scope of this audit included a review of the contractor’s responsibility determination, task
order award modifications, performance monitoring, and invoice processing and payments to
determine whether ARS followed departmental and agency policies and procedures, FAR and
Recovery Act requirements. We performed procedures, as necessary, to determine whether the
modifications were based on fair and reasonable price estimates, that the contract was awarded to
a contractor with appropriate qualifications, and that processes were in place to ensure that the
contractor provided services/products in accordance with contract terms. We found ARS’
contracting staff, including the contracting officer, contract specialist, and contracting officer’s
technical representative, were experienced and qualified to award and monitor the contract and no
issues were noted in these areas that would warrant reporting.

However, we identified three issues that warrant reporting. ARS applied Recovery Act funds for
payment of non-Recovery Act items. ARS’ contracting officer did not include adequate release
of claims language in six task order modifications, and modification award notices were not
publicized in a timely manner on FedBizOpps.gov.




                                                 2
Finding 1: Incorrect Application of Funds and Discrepancies in Recovery Act Reporting

The Prime Recipient information on Recovery.gov relating to the total amount invoiced and
received did not agree with the information recorded in ARS’ financial system. Specifically, we
noted that as of September 30, 2010, the contractor invoiced and was paid $848,237, which was
reported in ARS’ financial system. However, $824,322 was reported on Recovery.gov for the
same period. The amount of disbursements reported on Recovery.gov is $23,915 less than the
amount recorded in the financial system for Recovery Act funds.

The discrepancy occurred because a payment for a non-Recovery Act line item on a contractor
invoice was inadvertently made with Recovery Act funds. The contracting officer did not
adequately communicate with Financial Management Division regarding the appropriate fund to
be applied in the payment of the non-Recovery Act line item. Also, ARS did not review and
reconcile Recovery Act data, including contractor’s data, for accuracy and consistency with
information reported on the financial system, prior to reporting on Recovery.gov.

We brought this error to the attention of ARS’ management, and noted that ARS has attempted
to implement corrective actions, as of November 30, 2011, by applying non-Recovery Act
fundsto pay for a Recovery Act funded portion of a subsequent invoice. However, we
determined that a more appropriate approach would have been for ARS to prepare journal
entries, with the right transaction codes, to correct the error. We noted that ARS’ Contracts
Standard Operating Procedures, CSOP 04-002, Invoice Handling Procedures, does not address
situations involving multiple sources of funding and when an invoice contains line items funded
with different sources. ARS should clearly delineate and indicate the appropriate funds to be
used in the payment of separately funded line items on an invoice, prior to disbursement of funds
and reporting on Recovery.gov.

As a result of the condition noted above, the accuracy of USDA’s Department-wide total of
Recovery Act financial and activity data for the quarter ending September 30, 2010 could be
adversely affected.

OMB’s Initial Implementing Guidance for the Recovery Act (M-09-10), states “…given the high
priority placed on the accurate display of information related to Recovery Act on Recovery.gov,
agencies are responsible for pre-dissemination review of all information that will appear on
Recovery.gov. All agencies must ensure all reporting related to Recovery Act funding is
complete and accurate and complies with the agency’s Information Quality Act guidelines.” The
guidance also requires agencies to separately track expenditures relating to Recovery Act funding
within their financial system.

Recommendation 1

ARS should adequately review and reconcile Recovery Act data, including contractors’ data, for
accuracy and consistency with information reported on the financial system, prior to reporting on
Recovery.gov.



                                                3
Recommendation 2

ARS should revise their CSOP 04-002, Invoice Handling Procedures, to address when multiple
sources of funding are being used on a project, and when an invoice contains line items funded
with different appropriations, to ensure proper reporting.

Recommendation 3

ARS should prepare journal entries with appropriate transaction codes to correct the errors.




                                                 4
Finding 2: Release of Claim Was Not Included on Contract Modifications

Six modifications did not include clear release of claims language releasing the government from
all liabilities that could arise under the change order, as required by FAR and ARS’ Contract
Specialist Handbook. During the course of the contract, there was a change in contracting
officers. When questioned about the required language not being in the modification, the
contracting officer who took over the management of the contract pointed out that he had
included similar language in each modification. We noted that the changed verbiage did not meet
the requirements of the FAR and ARS’ guidance because the modified language did not
specifically release the Federal government from additional liability. As a result of not including
the prescribed release of claims language in the contract modifications, ARS may be exposed to
the risk of additional claims resulting from controversies arising from the supplemental change
order agreements.

FAR part 43.204 (c) (2) and ARS' Contract Specialist Handbook, Chapter 9.4.4 states that “to
avoid subsequent controversies that may result from a supplemental agreement containing an
equitable adjustment as the result of a change order, the contracting officer should include, in the
supplemental agreement, a release similar to the following: ‘In consideration of the
modification(s) agreed to as complete equitable adjustments for the work called for above, the
Contractor hereby releases the Government from any and all liability under this contract for
further equitable adjustments attributable to any facts or circumstances that could arise under the
contract for the work above.”

We examined the modified ‘release of claims’ language that the contracting officer referred to
and determined that it did not say the government is released from all liabilities associated with
the change order, since it did not convey the same meaning as the language in FAR part 43.204
(c) (2) and ARS' Contract Specialist Handbook Chapter 9.4.4.

Recommendation 4

ARS should instruct all contracting officers to include the standard release of claims language in
all bilateral modifications as required by FAR part 43.204 (c) (2) and ARS' Contract Specialist
Handbook, Chapter 9.4.4. The specific modifications should be corrected by adding the
appropriate release of claims language.




                                                  5
    Finding 3: Delayed Publication of Task Order Modification Award Notices

    ARS awarded task order modifications, and publicized the award notices on FedBizOpps.gov, as
    required by FAR part 5.7. However, the notices were not publicized in a timely manner. A
    modification was awarded on January 8, 2010 for $48,388, and the award was publicized on
    FedBizOpps.gov on May 6, 2010, 118 days after the award date. Another modification was
    awarded on May 5, 2010 for $29,270, and the award was publicized on FedBizOpps.gov on June
    30, 2010, 55 days after the award date. We noted ARS reported other contract actions such as the
    initial contract award within one day.

    In explaining the guiding principles of Recovery Act reporting, OMB’s Updated Implementing
    Guidance for the Recovery Act (M-09-15) states, that “timely and accurate information reporting
    by the Federal agencies provides both the Congress and taxpayers an ability to track and monitor
    all Recovery funds with the level of transparency and accountability envisioned in the Act.”

    We discussed this condition with the contracting officer, and he stated that the untimely
    publication must have been an oversight, since he was uncertain as to why the delays occurred.
    He agreed that all publications of task orders, including modification award notices, on
    FedBizOpps.gov should have been done within a few days of the modification’s execution.

    The ability of the taxpayer to track and monitor all Recovery funds with the level of transparency
    and accountability envisioned in the Act is impaired when award notices are not publicized in a
    timely manner on FedBizOpps.gov.

    We are not making a new recommendation at this time, because this issue was noted in a
    previous contract review. 3 We recommended that ARS’ management should take the
    necessary action to provide complete and timely reporting for Recovery Act contracts posted
    on FedBizOpps.gov and strengthen managerial reviews. ARS concurred with these
    recommendations and has revised its Standard Operating Procedure 02-005, Posting
    Solicitations and Other Announcements and Notices on FedBizOpps, to include Recovery Act
    actions.




    This issue was noted in audit report 02703-05-HQ, issued September 30, 2011.
3


                                                            6
Agency’s Response




                    USDA’S


    AGRICULTURAL RESEARCH SERVICE


         RESPONSE TO AUDIT REPORT
April 23, 2012


SUBJECT:         Management’s Response to Recommendations in Audit Report 02703-0007-HQ –
                 Procurement Oversight Audit of the National Center for Agricultural Utilization
                 Research Contract

       TO:       Gil H. Harden
                 Assistant Inspector General for Audit
                 Office of Inspector General

                 Jon M. Holladay
                 Acting Chief Financial Officer
                 Office of the Chief Financial Officer

   FROM:         Lisa A. Baldus /s/
                 Associate Deputy Administrator
                 Administrative and Financial Management


The Agricultural Research Service (ARS) provides the following response to audit
Recommendations 1 through 4 in Audit Report 02703-0007-HQ – Procurement Oversight Audit
of the National Center for Agricultural Utilization Research Contract.

Finding 1: Incorrect Application of Funds and Discrepancies in Recovery Act Reporting

Recommendation 1

ARS should adequately review and reconcile Recovery Act data, including contractors’ data, for
accuracy and consistency with information reported in the financial system prior to reporting on
Recovery.gov.

Agency Response

We concur and will also continue to send out reminders to the Contracting Officers (COs) to
review and reconcile all data. The next reminder will be sent on/about April 17, 2012.
Gil H. Harden, et. al.                                                                           2

Recommendation 2

ARS should revise their CSOP 04-002, Invoice Handling Procedures, to address when multiple
sources of funding are being used on a project, and when an invoice contains line items funded
with different appropriations, to ensure proper reporting.

Agency Response

Since this review was done, ARS has undergone a reorganization that became effective on
February 12, 2012. As a result, the Facilities Contracts Branch (FCB) which issued this
guidance no longer exists and the CSOP will not be revised. However, COs will be advised to
closely review all invoices to ensure that the correct accounting code is used. This reminder will
be sent on/about April 17, 2012. This recommendation, though, will be forwarded on/about
April 17, 2012, to the Acquisition and Property Division (APD) to include in their guidance to
the Agency if/when they consolidate policies.

Recommendation 3

ARS should prepare journal entries with appropriate transaction codes to correct the errors.

Agency Response

We concur. The contract payment files will be corrected by April 30, 2012.

Finding 2: Release of Claim Was Not Included on Contract Modifications

Recommendation 4

ARS should instruct all contracting officers to include the standard release of claims language in
all bilateral modifications as required by FAR Part 43.204(c) (2) and ARS’ Contract Specialist
Handbook, Chapter 9.4.4. The specific modifications should be corrected by adding the release
of claims language.

Agency Response

We concur. A contract modification will be issued to incorporate the proper release of claims
language for the previous modifications by April 30, 2012.

cc:
R. Herchak, FD
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
